<html>
<title> - NOMINATION OF TRACIE L. STEVENS TO BE CHAIRMAN OF THE NATIONAL INDIAN GAMING COMMISSION</title>
<body><pre>[Senate Hearing 111-697]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-697

 NOMINATION OF TRACIE L. STEVENS TO BE CHAIRMAN OF THE NATIONAL INDIAN 
                           GAMING COMMISSION

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 26, 2010

                               __________

         Printed for the use of the Committee on Indian Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>










                      U.S. GOVERNMENT PRINTING OFFICE
  61-826 PDF               WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 26, 2010.....................................     1
Statement of Senator Cantwell....................................     4
Statement of Senator Dorgan......................................     1
Statement of Senator Franken.....................................    31
Statement of Senator Murray......................................     3
Statement of Senator Tester......................................     5

                               Witnesses

Cladoosby, Hon. Brian, Chairman, Swinomish Indian Tribal 
  Community......................................................     6
    Prepared statement...........................................     9
Stevens, Tracie L., Nominee to be Chairman of the National Indian 
  Gaming Commission..............................................    11
    Prepared statement...........................................    13
    Biographical information.....................................    15

                                Appendix

Response to written questions submitted to Tracie L. Stevens by:
    Hon. John Barrasso...........................................    36
    Hon. Tom Coburn..............................................    39
    Hon. Byron L. Dorgan.........................................    35
    Hon. John McCain.............................................    38
    Hon. Jon Tester..............................................    40

 
 NOMINATION OF TRACIE L. STEVENS TO BE CHAIRMAN OF THE NATIONAL INDIAN 
                           GAMING COMMISSION

                              ----------                              


                        WEDNESDAY, MAY 26, 2010


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m. in 
room 628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 

Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We are going to begin the hearing today. This 
is a hearing of the Senate Indian Affairs Committee. We meet 
today to examine President Obama's nomination of Ms. Tracie 
Stevens to serve as Chairman of the National Indian Gaming 
Commission.
    Congress enacted the Indian Gaming Regulatory Act, now 
nearly 22 years ago, in large part to establish the Commission 
itself. That Act acknowledges the inherent right of Indian 
tribes to conduct gaming and balances that right with the need 
to provide a regulatory framework for Indian gaming.
    The mission of the agency is to regulate gaming activities, 
to shield it from crime and ensure that the games are conducted 
fairly and honestly, as they are authorized by the various 
Indian tribes. The Chairman of the National Indian Gaming 
Commission is specifically tasked with conducting 
investigations and audits, reviewing tribal gaming ordinances, 
taking enforcement actions, issuing fines and conducting 
background investigations.
    The Chairman, along with two commissioners, oversees 115 
employees who work at seven regional offices and four satellite 
offices. The Commission's annual budget is about $16 million. 
The Commission also works to provide technical assistance to 
approximately 3,400 tribal and State gaming regulators that 
conduct day to day oversight of tribal gaming operations.
    Now, over the past 22 years, the Commission, acting under 
authority provided in the Indian Gaming Regulatory Act, has 
succeeded in protecting and fostering Indian gaming as a means 
of generating revenue for many tribes. Today there are 242 
Indian tribes conducting gaming, and the industry generated 
about $27 billion in gross revenues in 2008.
    Indian gaming has brought some tribal communities from 
desperate poverty to wealth. Many tribes use Indian gaming 
revenue to improve health care and tribal schools, care for 
tribal elders, provide fire and police protection, diversify 
tribal economies, rebuild infrastructure and for many other 
purposes.
    For many other tribes, gaming creates sorely-needed jobs 
for reservation residents. While I mentioned that it brings 
wealth to some tribes, by and large, most of the tribes are 
benefitted by Indian gaming, but it does not bring what I would 
call wealth. It brings an added income stream with which to 
help members of the tribe.
    Despite the relative success of these gaming facilities, a 
number of outstanding issues and questions remain in Indian 
gaming, including gaps in regulation and definitions of certain 
terms in the Act. We are here today to highlight a number of 
these concerns and to get Ms. Stevens' views on how she will 
confront them.
    As we will hear today, Ms. Stevens has a strong background 
in Indian Affairs policy, Indian gaming management and 
operations and Federal and State and tribal relations. The job 
of Chairman of the National Indian Gaming Commission is a big 
job. I am confident that she will provide the needed leadership 
and oversight to ensure that Indian gaming continues to 
flourish in our Country.
    I am glad to express my support for her nomination. Before 
I recognize others, I want to clarify the process for moving 
forward with this nomination.
    This morning, Committee members will ask questions of Ms. 
Stevens, and more will be submitted in writing tomorrow. Once 
the Committee has received the full responses to these 
questions, we will seek to report the nomination at our next 
scheduled business meeting.
    Let me just finally say with respect to Indian gaming, 
there have been questions remaining since the Colorado River 
decision, and issues that remain unresolved. And the Committee 
will likely want to hold future hearings on that, on the 
question of the ability of the National Indian Gaming 
Commission to regulate Class III gaming, as an example. Some 
say that, well, we don't want three levels of regulatory 
authority, the State, the tribe, National Indian Gaming 
Commission.
    And yet, I recognize that while there are some States in 
the Country that have a very sophisticated State level of 
regulatory authority that comes with the State's 
responsibilities under the compact with the tribes for Indian 
gaming, there are other States that would say they have 
regulatory authority but really do not. States that perhaps 
have a half-time person or one or one and a half people whose 
job it is to take a look at Indian gaming. That is really not 
effective regulation.
    So I know that there are people who say, well, we don't 
want the Congress to do anything about the Colorado River 
decision. And yet, it remains out there as something that has 
to be discussed, at least in terms of those States in which 
compacts exist and Indian gaming exists and there is no 
effective State regulatory authority. There is then a tribal 
responsibility, should there not also be a responsibility for 
Class III gaming on the part of the National Indian Regulatory 
Commission?
    Those are very important issues. All of us want Indian 
gaming to go well, to be successful, to be beneficial to the 
tribes and the members of the tribes. We think that has been 
the case. There is much to be said that is positive about it.
    I am pleased, however, that we now have a nominee to chair 
the Commission. It has been a rather lengthy period of time, 
and it is necessary to protect this area of Indian gaming with 
effective regulatory authority. That is the reason we will move 
with some dispatch with this nominee.
    Let me call on my two colleagues from the State of 
Washington who wished to be present to introduce. Senator 
Murray, would you like to come up and introduce from here? Then 
I will call on Senator Cantwell.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman. It 
really is a pleasure and an honor for me to be here. Thank you 
for allowing me to join your Committee for a moment today to 
introduce Tracie Stevens, who has been nominated to chair the 
National Indian Gaming Commission.
    Tracie has spent over a decade developing the skills to 
excel as the Chair of the NIGC, starting with her work in 
operations at the Tulalip Casino. She has practical, on the 
ground knowledge of this industry. She is a proven leader in 
this field and has developed strong relationships at our local, 
State and national level, as the Northwest delegate and 
executive board member of the National Indian Gaming 
Association, Chair of the Gaming Subcommittee of the Affiliated 
Tribes of Northwest Indians and the Secretary of the Board of 
Directors of the Washington Indian Gaming Association.
    Mr. Chairman, I have really appreciated Tracie's work in 
her current position at the Bureau of Indian Affairs. She has 
been a very effective leader and has demonstrated knowledge of 
very complex policy issues and really knows how to communicate 
those and their importance, both to Washington State and the 
entire Country.
    I also have to say that I am personally excited for 
Tracie's nomination, because she is an enrolled member of the 
Tulalip Tribes of Washington State, and understands all of the 
diverse communities in my State and across the Country.
    Mr. Chairman, I am delighted to be here today and honored 
to give her my highest recommendation, because I really believe 
she is going to excel as Chair of the NIGC. She has developed 
the relationships and the trusts that are really necessary to 
be an effective leader. So I am proud to be here today and join 
with my colleague, Senator Cantwell, and friends and family of 
Tracie as well, to support her nomination.
    The Chairman. Senator Murray, thank you very much for being 
with us and for that statement.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding this important hearing this morning, and doing so 
so quickly. The need for permanent leadership at the National 
Indian Gaming Commission is very great.
    I am pleased to be here to introduce Tracie Stevens, 
President Obama's nominee for the chairmanship of the National 
Indian Gaming Commission. I have known Tracie for many years, 
and I am glad to see that her husband, Kyle Allen, and her 
daughter, Cierra Joy, are also with her today, as well as State 
Representative John McCoy, a member of Washington State 
legislature and a member of the Tulalip Tribe. He is one of the 
few Native Americans who have been elected to our Washington 
State legislature in the history of our State. And he is here 
to support Tracie as one of her key mentors.
    Mr. Chairman, the nomination of Tracie Stevens to be Chair 
of the National Indian Gaming Commission is an important 
nomination. Because the job provides crucial oversight and 
regulation of tribal gaming. We all know that since this 
Commission was created in 1988, tribal gaming has grown 
dramatically, providing jobs and economic resources to Indian 
Country.
    What we need in this position, Mr. Chairman, is someone who 
understands and can balance the many unique and complicated 
issues that arise between tribal sovereignty and Federal law. 
Tracie Stevens has been a leader in her own community on these 
important issues for almost two decades. The Tulalip Enterprise 
is one of the most successful and productive in the State of 
Washington. The Tulalip's have leveraged their economic 
opportunity to diversify their own economy. Through these 
resources, they have transformed their tribe and have enabled 
major investments in their people and in natural resources.
    Tracie has been a key part of the Tulalip's successful 
transition in numerous critical positions. I am enthusiastic 
about her nomination, because she understands the many aspects 
of tribal gaming, because she has seen them through the many 
advances of her own career. She understands how tribal gaming 
works on the ground, with State compacts, and at a national 
level.
    Tracie rose to the position of Senior Policy Analyst with 
the Tulalip's Department where she was the chair of re-writing 
the tribal gaming ordinance. And she led the Tulalip's 
negotiation on their gaming compact with the State of 
Washington, a process that took two years.
    Because of these experiences at the Tulalip Tribe and her 
subcommittee chairmanship with the Affiliated Tribes of the 
Northwest and participating as a delegate to the National 
Indian Gaming Commission, I know she will bring a new and 
unique perspective to NIGC.
    She also has already gained a lot of national experience 
working as a key member of the staff of Assistant Secretary 
Echo Hawk's office in the Bureau of Indian Affairs. She has 
worked on public policy, energy, economic development, land 
into trust, and budget priorities. So her nomination, Mr. 
Chairman, fills the last vacant position on NIGC, and with her 
confirmation we will be back to full strength after one and a 
half years without a full complement of commissioners. This 
agency will now be able to get back to carrying out its core 
purpose and hopefully put the distractions from the past behind 
it. I am confident that Tracie Stevens is capable of leading 
the NIGC as it deals with these most contentious issues.
    Finally, I would also like to thank Brian Cladoosby, Chair 
of the Swinomish Tribe, and President of the Affiliated Tribes 
of the Pacific Northwest, for traveling from the Swinomish 
Reservation to be here and introduce Tracie on behalf of Indian 
Country.
    Thank you, Mr. Chairman. It is a pleasure to be here with 
my colleague, Senator Murray, as we have many Northwest Tribes. 
We are certainly proud of Tracie and the Tulalips today.
    The Chairman. Senator Cantwell, thank you very much. Those 
are two very strong statements of support from your home 
Senators, Ms. Stevens.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I want to thank you, Mr. Chairman, and I 
also want to thank the witnesses for being here, especially 
Tracie Stevens. I think it speaks well of you, Tracie, to have 
your two home State Senators who are great folks in their own 
right speak so well of you.
    This is an important hearing. Indian gaming is important. 
It is also controversial. On one hand, Indian gaming has 
transformed some of the tribal islands of poverty into island 
of prosperity. Close to population centers, we have seen 
operating successful, diversified business providing health 
care to the entire membership. In other places, it hasn't been 
so good. Where we see tribal members addicted to something like 
gaming itself, alcohol, cigarettes, other things that go along 
with it, and thereby neglecting jobs, kids and family, it is 
not healthy.
    As policy makers, we have to decide whether Indian gaming 
represents a net positive or a net negative. In some places it 
is a positive and in others, I see it as a negative. We 
constantly have to ask ourselves where and when it is 
appropriate.
    The purpose of this hearing is to find out whether Ms. 
Stevens understands the competing priorities and how she will 
address them. I want to be sure that we give Indian Country the 
tools that they need to be self-sufficient through self-
determination. Sometimes that means gaming. But I also want to 
make sure that we keep our kids and communities safe and clean.
    The National Indian Gaming Commission faces unique 
challenges. I want to make sure that whoever fills that 
position knows how to reach a fair balance on competing issues.
    Internet gaming, for example, I would like to hear what 
role you think tribes and States have in the growth of that 
industry. Class II gaming is another example, I would like to 
hear where you draw the line between traditional bingo games 
and full-scale Las Vegas slot machines. Off-reservation gaming, 
when and where do you think it is appropriate.
    Finally, I would like to hear your thoughts on using gaming 
as a way to lift the boat in Indian Country. Some tribes have 
become famously wealthy because of it. Others continue to 
repeat a cycle of poverty. How do you think successful gaming 
tribes can help those less fortunate tribes?
    Again, I want to thank you, Mr. Chairman, for holding this 
hearing. Before I relinquish the mic, I would just like to say, 
thank you, Tracie, for coming to my office and visiting about 
issues that revolve around Indian Country, and gaming in 
particular. I think you are going to do a great job in this 
position. I look forward to supporting your nomination.
    Thank you, Mr. Chairman.
    The Chairman. Senator Tester, thank you very much. We 
appreciate that.
    Prior to hearing from Ms. Stevens, we will hear from the 
Honorable Brian Cladoosby, the Chairman of the Swinomish Tribe 
of Washington, and President of the Affiliated Tribes of the 
Northwest Indians in Washington State. Mr. Cladoosby, thank you 
very much for being with us.

 STATEMENT OF HON. BRIAN CLADOOSBY, CHAIRMAN, SWINOMISH INDIAN 
                        TRIBAL COMMUNITY

    Mr. Cladoosby. Thank you. Good morning, Chairman Dorgan and 
members of the Committee.
    My traditional name is Speepots. I am Brian Cladoosby, 
Chairman of the Swinomish Indian Tribal Community. It is my 
honor to appear before you today to introduce Ms. Tracie 
Stevens as President Barack Obama's nominee to be the Chair of 
the National Indian Gaming Commission.
    On behalf of Swinomish and my fellow Washington Tribes, we 
extend our deepest support for Tracie, a respected tribal 
member, who has committed her career to the good of Indian 
Country and the United States of America. We give thanks to her 
husband, Kyle, and daughter, Cierra, for their love and support 
which is evident throughout her accomplishments as mother, wife 
and a leader.
    Let me share a little bit about myself. I have served my 
people as Chairman, this is my 14th year. I was just re-elected 
to our Swinomish Senate, starting my 26th year on council. I am 
also privileged to represent my colleagues from Washington 
State Tribes for the past 10 years as President of the 
Association of Washington Tribes, and represent the 57 Pacific 
Northwest Tribes in seven western States, including Alaska, as 
President of the Affiliated Tribes of Northwest Indians. I am 
an executive board member of the National Congress of American 
Indians. Also an executive board member of the Washington 
Indian Gaming Association, as well as a member of the U.S. 
Environmental Protection Agency's National Environmental 
Caucus.
    We have some fantastic tribal leaders in Washington State 
and in the Pacific Northwest. I am honored to work with all of 
them. I have had the privilege of knowing Tracie most of my 
career as Chairman, and I hold her in high esteem as a 
colleague. She is an accomplished Native woman who follows the 
footsteps of many strong tribal leaders from her family and 
community. In her lifetime, there have been challenges that are 
not uncommon to most Indian people, which she has overcome.
    Today she represents the paradigm of a healthy and 
successful Native woman in Indian Country. We are so fortunate 
to have a person of her will and commitment who will embrace 
the responsibility as Chair of the National Indian Gaming 
Commission.
    Throughout her career, Ms. Stevens' many accomplishments 
have benefitted tribes in the Northwest and throughout the 
Nation. Ms. Stevens' reputation in governmental affairs is 
well-known and respected by Washington State and our tribes. 
The 12 years of experience at the various levels of gaming law, 
policy and in management in Tulalip has provided her the 
expertise to fulfill the Chair's responsibilities.
    My personal experience working with Ms. Stevens was during 
the time when the Tulalip tribes were negotiating multi-party 
tribal-State compact amendments. As the lead for Tulalip, she 
was responsible for not only the oversight and management of 
the development of policy, but the legislative challenges and 
the overall protection of tribal interests of all 28 compact 
tribes.
    During this period of time, working with the tribes, State 
and Federal legislation, she earned the reputation and respect 
as a tough negotiator in critical situations. Tracie was 
successful in her pursuit to make a change in policy that would 
be acceptable to all governing bodies and gained the standing 
of being trusted by all parties.
    Like many of you in leadership positions, our success is 
often a reflection of who we depend upon as colleagues, staff, 
advisors and friends. My predecessor once told me to surround 
myself with people you can trust and who support you. For 
governmental affairs and Gaming industries, this person was Ms. 
Stevens. I relied on her guidance as an executive board member 
of the Washington Indian Gaming Association, when she was the 
Northwest delegate to the National Indian Gaming Association, 
and when she served as the Chair of the gaming subcommittee for 
the Affiliated Tribes of Northwest Indians.
    In her role as committee Chair, she was responsible for 
providing the capacity for tribes to address policy and 
legislative actions, networking and communication and reporting 
on key local and national issues on gaming. This variety of 
positions enhanced Ms. Stevens' knowledge on various 
governmental relationships, agency responsibilities, Federal 
agreements and most importantly, NIGC. Tracie's skills will 
enhance the NIGC's ability to make decisions that will reflect 
the stakeholders' governmental responsibilities and provide a 
cohesive approach in delicate situations.
    We respect the Chair of the National Indian Gaming 
Commission as one of upmost importance. The responsibility of 
the Chair position will need to not only protect Indian gaming, 
but will also need to ensure gaming regulations are thorough 
and consistent at all levels of the industry. We view the Chair 
to be one of strong character and have a sound reputation, to 
ensure that our futures are best represented at all times. We 
cannot afford for a mistake to occur as it could be devastating 
for most tribes.
    For Swinomish, gaming has always been a means to an end, 
rather than an end in itself. Swinomish observes gaming as a 
sole source, in partnership with Federal funding, that supports 
our governmental services. It is equivalent to your view of 
taxation. The goal of the Swinomish tribal government is to 
provide the best governmental services it can to its 
membership. Gaming provides desperately needed funds to support 
tribal activities and has been the answer to many prayers for 
this community of mine of just about 900 members living on 
approximately 10,000 acres of reservation land.
    Prior to the advent of gaming, Swinomish leaders struggled 
to provide social services and supported the tribe through 
Federal governmental grants and contracts in a variety of 
economic endeavors and commercial leases. Funds were limited 
and the needs were great then, as they continue to be now.
    The Swinomish story is heard throughout Indian Country and 
all tribal leaders share a vision for greater things for our 
people and work tirelessly to make a better life for our 
elders, children and grandchildren. I share this with you so 
you may understand the true meaning of what gaming means, not 
only to our community, but to all tribal communities, and how 
important the role of the NIGC Chairman is to the 
sustainability of our governments.
    With this in mind, let me say this in support of Ms. 
Stevens. She carries the blood line of strong and independent 
Tulalip women who have provided leadership in their lifetimes. 
I have no doubt in my mind that Tracie has the integrity, 
wisdom and autonomy to make strong decisions that respect the 
responsibilities of the Commission. Her experience and 
accomplishments in Indian Country are vast and widely-known by 
our governing bodies in the United States.
    If confirmed, she will be vigorous in her duties as 
Chairman of the National Indian Gaming Commission, and her 
actions will ensure that all stakeholders are treated in an 
equitable manner.
    In conclusion, I would like to read a resolution that was 
just passed at our Affiliated Tribes of Northwest Indians 
meeting last week on Grand Ronde, Oregon: ``Whereas, the 
Affiliated Tribes of Northwest Indians are representatives of 
and advocates for national, regional and specific tribal 
concerns, and whereas, ATNI is a regional organization 
comprised of American Indians and Alaska Natives in the States 
of Washington, Idaho, Oregon, Montana, Nevada, Northern 
California and Alaska, and whereas, the health, safety, 
welfare, education and economic and employment opportunity and 
preservation of culture and natural resources are primary goals 
and objectives of ATNI, and whereas, ATNI supports the 
nomination of Tracie Stevens for Chairman of the National 
Indian Gaming Commission, and whereas, ATNI finds the United 
States and the sovereign nations therein will be well-served by 
the blend of skills and experience Tracie Stevens brings to the 
position of NIGC chairman, and whereas, Tracie Stevens has a 
record of service to Indian Country, beginning as an executive 
in gaming operations, and later as a senior governmental 
affairs policy analyst, during which time she served her tribe, 
and whereas, Tracie Stevens served on the board of the 
Washington Indian Gaming Association from 2002 to 2009 and the 
National Indian Gaming Association from 2003 to 2009, and 
whereas, currently Ms. Stevens is senior advisor to the 
Assistant Secretary of Indian Affairs, and is working on an 
array of issues, such as gaming, law enforcement, energy 
consultation, economic development, land into trust, tribal 
government disputes, budget priorities, treaty and natural 
resources rights, since her hiring in 2009, and therefore, be 
it resolved, ATNI unanimously supports President Barack Obama 
in the nomination of Tracie Stevens to serve as the Chairman of 
the NIGC and calls upon the United States Senate for a prompt 
and bipartisan confirmation of that nomination.''
    Once again, I thank you for giving me this opportunity to 
introduce you to Ms. Tracie Stevens, and may the Creator of all 
bless you and your families. Thank you.
    [The prepared statement of Mr. Cladoosby follows:]

Prepared Statement of Hon. Brian Cladoosby, Chairman, Swinomish Indian 
                            Tribal Community
    Good Morning Chairman Dorgan and Members of the Committee. My 
traditional name is Speepots, I am Brian Cladoosby, Chairman of the 
Swinomish Indian Tribal Community. It is my honor to appear before you 
today to introduce Mrs. Tracie Stevens as President Obama's nominee to 
be the Chair of the National Indian Gaming Commission. On behalf of 
Swinomish and my fellow Washington Tribes we extend our deepest support 
for Ms. Stevens, a respected tribal member who has committed her career 
to the good of Indian Country and the United States of America. We give 
thanks to her husband Kyle and daughter Cierra, for their love and 
support which is evident throughout her accomplishments as a mother, 
wife and leader.
    Let me share a little bit about myself. I have served my people as 
Chairman for 14 years and have been on our Senate for 26 years. I am 
also privileged to represent my colleagues from Washington tribes for 
the past 10 years as President of the Association of Washington Tribes 
and represent the 57 Pacific Northwest Tribes in seven western states 
including Alaska as President of the Affiliated Tribes of Northwest 
Indians. In my short career I have been an Executive Board member of 
the Washington Indian Gaming Association as well as a member of the US 
Environmental Protection Agency's National Environmental Caucus. We 
have some fantastic tribal leaders in Washington State and in the 
Pacific Northwest, and I am honored to work with all of them.
    I have had the pleasure of knowing Ms. Stevens most of my career as 
Chairman and I hold her in high esteem as a colleague. She is an 
accomplished native woman who follows the footsteps of many strong 
tribal leaders from her family and community. In her lifetime there 
have been challenges that are not uncommon to most Indian people, which 
she has overcome. Today she represents the paradigm of a healthy and 
successful native woman in Indian Country. We are so fortunate to have 
a person of her will and commitment who will embrace the responsibility 
as Chair of the National Indian Gaming Commission.
    Throughout her career, Ms. Stevens' many accomplishments have 
benefited tribes in the Northwest and throughout the Nation.
    Ms. Stevens' reputation in governmental affairs is well known and 
respected by Washington State and our Tribes. The 12 years of 
experience at the various levels of gaming law, policy and management 
in Tulalip has provided her the expertise to fulfill the Chair's 
responsibilities. My personal experience working with Ms. Stevens was 
during the time when The Tulalip Tribes were negotiating multi-party 
tribal-state compact amendments. As the lead for Tulalip, she was 
responsible for not only the oversight and management of the 
development of the policy, but the legislative challenges and the 
overall protection of tribal interests of all 28 compact Tribes. During 
this period of time working with the tribes, state and federal 
legislation, she earned the reputation and respect as a tough 
negotiator in critical situations. Ms. Stevens was successful in the 
pursuit to make a change in policy that would be acceptable to all 
governing bodies and gained the standing of being trusted by all 
parties.
    Like many of you in leadership positions, our success is often a 
reflection of who we depend upon as colleagues, staff, advisors and 
friends. My successor once told me to surround myself by people you can 
trust and who support you. For governmental affairs and gaming issues, 
this person was Ms. Stevens. I relied on her guidance when I was Chair 
of the Washington Indian Gaming Association, when she was the Northwest 
delegate to the National Indian Gaming Association and when she served 
as the Chair of the Gaming Subcommittee for the Affiliated Tribes of 
Northwest Indians. In her role as committee chair, she was responsible 
for providing the capacity for tribes to address policy and legislative 
actions, networking and communication, and reporting on key local, 
regional and national issues on Gaming.
    This variety of positions enhanced Ms. Stevens' knowledge on 
various governmental relationships, agency responsibilities, federal 
agreements and most importantly, NIGC. Ms. Stevens' skills will enhance 
the NIGC's ability to make decisions that will reflect the 
stakeholder's governmental responsibilities and provide a cohesive 
approach in delicate situations.
    We respect the Chair of the National Indian Gaming Commission as 
one of utmost importance. The responsibility of the Chair position will 
need to not only protect Indian gaming, but will also need to ensure 
gaming regulations are thorough and consistent at all levels of the 
industry. We view the Chair to be of a strong character and have a 
sound reputation to ensure that our futures are best represented at all 
times. We cannot afford for a mistake to occur, as it could be 
devastating for most Tribes.
    For Swinomish, gaming has always been a means to an end, rather 
than an end in itself. Swinomish observes gaming as the sole source in 
partnership with federal funding that supports our governmental 
services; it is equivalent to your views of taxation. The goal of the 
Swinomish tribal government is to provide the best governmental 
services it can to its membership. Gaming provides desperately needed 
funds to support tribal activities and has been the answer to many 
prayers for what this community of over 800 members living on a 10,000 
acre reservation could be. Prior to the advent of gaming, Swinomish 
leaders struggled to provide social services and supported the Tribe 
through Federal government grants and contracts and a variety of 
economic endeavors and commercial leases. Funds were limited and the 
needs were great then, as they continue to be now. The Swinomish story 
is heard throughout Indian Country and all tribal leaders share a 
vision for greater things for our people and work tirelessly to make a 
better life for our elders, children and grandchildren. I share this 
with you so you may understand the true meaning of what gaming means 
not only to our community but to all tribal communities, and how 
important the role of the NIGC Chairman is to the sustainability of our 
governments.
    With this in mind, let me say this in support of Ms. Stevens. She 
carries the bloodline of strong and independent Tulalip women who have 
provided leadership in their lifetimes. I have no doubt in my mind that 
Ms. Stevens has the integrity, wisdom and autonomy to make strong 
decisions that respect the responsibilities of the Commission. Her 
experience and accomplishments in Indian Country are vast and widely 
known by our governing bodies in the United States. If confirmed, she 
will be vigorous in her duties as Chairman of the National Indian 
Gaming Commission and her actions will ensure that all stakeholders are 
treated in an equitable manner.
    Once again I thank you for giving me this opportunity to introduce 
to you Ms. Tracie Stevens. And may the Creator of all bless you and 
your families.

    The Chairman. Chairman Cladoosby, thank you very much.
    Now we will hear from Tracie Stevens, who is the nominee. 
Let me just say briefly that she comes from a tribe that has 
had successful gaming, and the development of a successful 
resort business with a business plan that I know directs 
revenues toward youth programs and programs for members of the 
tribe and elders. I am impressed with what your tribe has done.
    Let me recognize you for an opening statement and if you 
wish, when you begin, you may introduce your family. I have met 
your daughter, I see your daughter behind you there. I had the 
opportunity to be at a salmon bake, I believe, with Senator 
Cantwell at your tribe, or in the Northwest area.
    Anyway, you may introduce your family. Welcome to you, and 
your entire statement will be made a part of the permanent 
record. You may summarize it.

 STATEMENT OF TRACIE L. STEVENS, NOMINEE TO BE CHAIRMAN OF THE 
               NATIONAL INDIAN GAMING COMMISSION

    Ms. Stevens. Thank you, Chairman Dorgan and members of the 
Committee. I am honored to appear before you today as President 
Obama's nominee to be the Chairman of the National Indian 
Gaming Commission.
    With me today are my husband Kyle, to whom I have been 
happily married for 16 years and our beautiful 11 year old 
daughter, Cierra, who has been a constant source of joy for 
both of us.
    The Chairman. Welcome to both of you.
    Ms. Stevens. It is their never-ending support and 
sacrifices that have made it possible for me to be here today.
    I would also recognize members of my own tribal leadership 
from Tulalip who are here today: Business Committee Chairman 
Glen Gobin and Quil City Village Manager and Washington State 
38th District House Representative John McCoy. These leaders 
and so many others back home, like Chairman Cladoosby, provided 
constant encouragement without which I might not be here. So I 
thank them for their continued support today.
    I am a member of the Tulalip Tribes in Washington State, 
whose reservation is located approximately 35 miles north of 
Seattle. I am the youngest of four children. In 1985, I 
graduated from high school in Yakima, Washington. Later, after 
years of attending college part-time and often at night and 
while working, I graduated from the University of Washington 
with a bachelor of arts in social sciences. I was the first 
member of my immediate family to graduate from high school and 
then from college.
    In 1995, I began working in the human resources department 
in my tribe's gaming facility. In that position, I recruited 
and hired hundreds of employees, not only for the casino but 
for the tribal government as well. My responsibilities expanded 
later to include assisting the 900 plus managers and employees 
with human resources and personnel matters, like employee 
training and development, counseling and guidance and 
disciplinary actions.
    I transferred to the operations side of the casino to work 
for the director of casino operations on management and 
personnel issues, budgeting, regulatory and operational 
compliance. Eventually, I became the executive director of 
strategic planning where I worked for the chief operations 
officer and was delegated to work with various department 
directors on overall regulatory and operational compliance, 
budgeting and current and new facility improvement planning.
    In 2002, I transferred to the tribal government to work 
with the Office of Governmental Affairs, where I acted as the 
intergovernmental liaison, ensuring that the positions of the 
tribe regarding local, State and Federal policy reached the 
appropriate legislative and regulatory officials and bodies.
    I advanced to senior policy analyst, where I was 
responsible for the governmental affairs department personnel, 
budget and practices. As part of my work in this department, I 
headed the tribe's initiative to rewrite our gaming ordinance. 
In this capacity, I directed policy as the legal staff rewrote 
the tribe's gaming ordinance line by line.
    This effort included working with our gaming regulators and 
operators, as well as using the NIGC's ordinance checklist to 
ensure that we produced a comprehensive ordinance that 
protected and safeguarded the operation thoroughly and complied 
with all applicable requirements.
    I also represented my tribe in a 28-tribe compact amendment 
negotiation with the State of Washington. I worked with my 
council to develop policy direction and asserted those 
positions in the negotiation. I also directed legal staff to 
ensure that the final compact language represented the tribe's 
interest. Part of this negotiation included writing Class III 
internal control standards, in collaboration with State and 
tribal regulators, testing labs, manufacturers, other small and 
large tribal operators and their attorneys.
    This was no small task. It took two years from start to 
finish, from the first tribal discussion among all Washington 
tribes to the final Interior approval.
    Another aspect of my work on behalf of Tulalip was serving 
on various regional and national organizations. I served on the 
board of the Washington Indian Gaming Association, was the 
Northwest delegate to the National Indian Gaming Association 
and served as the Chair of the Gaming Subcommittee for the 
Affiliated Tribes of Northwest Indians. These experiences with 
various organizations allowed me to establish working 
relationships with tribes across the Country, helping me to 
understand the larger impact of policies upon tribes outside my 
own.
    But more importantly, serving on these organizations 
furthered my experience in working with tribes with varying and 
often differing cultures, traditions, priorities and positions. 
My experience working in one of the three largest tribal gaming 
operations in the Northwest, as well as for our tribal 
government, has afforded me the opportunity to learn where and 
how policy intersects with real-time practices.
    The work I did for my tribe required me to become 
knowledgeable of the application of the full range of Federal, 
State and tribal laws and regulations that apply to Indian 
gaming and Indian tribes in general. Further, as a result of my 
experience working with large stakeholder groups, I have 
developed skills at working collaboratively to find the best 
solution, even when there are competing interests.
    The Tulalip Council has and continues to praise me for 
walking in both words, for which I am grateful. Walking in both 
worlds is a phrase that is used in Indian Country to refer to 
the ability to not only work in a tribal context, but to 
function in the broader non-Indian world. I think this phrase 
could also be used in a different way that is relevant to the 
position for which I am nominated, to describe an ability to 
cross the divide between gaming operations and broader policy. 
I think this ability has served me well.
    Most recently, I have served as advisor to the Assistant 
Secretary for Indian Affairs at the Department of Interior, and 
if confirmed, I will bring all of these experiences and skills 
to the position of Chairman. Working at my tribe's gaming 
facility, and also for my tribal government and at the 
Department of Interior has reinforced my commitment to 
safeguarding Indian gaming. Tribes as primary regulators are 
doing a good job. And if confirmed, I look forward to working 
with them.
    While I have a history and background in working with 
tribes, and I bring with me my tribe's tradition of 
collaboration first, let me be clear. I commit to upholding the 
statutory authority and responsibilities of this position to 
oversee the regulation of Indian gaming, and where appropriate, 
take enforcement action. If confirmed, I will work to ensure 
that tribes achieve and maintain compliance with all applicable 
statutes and regulations under the NIGC's authority.
    Indian gaming has provided a much-needed economic boost, as 
Chairman Dorgan demonstrated, whether in the form of revenue 
for services or simply in jobs, it has made a difference. And 
that is why thorough and consistent regulation at all levels of 
this industry is so vitally important. If confirmed, I commit 
to you, Mr. Chairman and members of this Committee, I will work 
to make that happen.
    It is truly an honor and a privilege to be considered for 
this position. Thank you again, Mr. Chairman, for the 
opportunity to testify before you today. I would be happy to 
answer any of your questions.
    [The prepared statement and biographical information of Ms. 
Stevens follow:]

Prepared Statement of Tracie L. Stevens, Nominee to be Chairman of the 
                   National Indian Gaming Commission
    Thank you, Chairman Dorgan and Members of the Committee. I am 
honored to appear before you today as President Obama's nominee to be 
the Chairman of the National Indian Gaming Commission. With me today 
are my husband Kyle, to whom I have been happily married for 16 years, 
and our beautiful 11 year old daughter, Cierra, who has been a constant 
source of joy for both of us. It is their never-ending support and 
sacrifices that have made it possible for me to be here today.
    I would also like to recognize members of my own tribal leadership 
from Tulalip who are here today: Business Committee Chairman Glen Gobin 
and Quil Ceda Village Manager and Washington State 38th District House 
Representative John McCoy. These leaders and so many others back home, 
like Chairman Cladoosby, provided constant encouragement without which 
I might not be here. So I thank them for their continued support today.
    I am member of the Tulalip Tribes in Washington State, whose 
reservation is located approximately 35 miles north of Seattle, 
Washington. The Tulalips are the people of the salmon and successors in 
interest to the Snohomish, Snoqualmie, Skykomish and other allied 
tribes and bands signatory to the 1855 Treaty of Point Elliott. My 
family is Snohomish. My great-grandmother was Sara Charlie-Sheldon, my 
grandmother is Katie Gates, who is going strong at a mere 97 years old, 
and my mother is Vi who instilled in me a very strong work ethic. I am 
proud to say that I come from a long line of strong, independent women 
who committed their lives to serving their families and their 
communities, and I am grateful to them all for their teachings that 
have led me here to stand before you today.
    I am the youngest of four children. I was born in Los Angeles, 
California, shortly after my father left the military. Eventually, my 
mother, my three siblings and I returned to Tulalip. I attended public 
school at and near Tulalip in early childhood and then later, we moved 
to areas where employment opportunities for my mother were more 
plentiful. In 1985, I graduated from high school in Yakima, Washington. 
I was the first member of my immediate family to graduate from high 
school.
    Shortly thereafter, I returned to the Tulalip area where I attended 
community college but as for many young people, the need for an income 
prevented me from pursuing full-time studies. After years of attending 
college part-time, often at night and while working, I graduated from 
the University of Washington with a Bachelor of Arts in Social 
Sciences. I was the first member of my immediate family to graduate 
from college.
    In 1995, I began working in the Human Resources department at my 
tribe's gaming facility. In that position, I recruited and hired 
hundreds of employees not only for the Casino but for the tribal 
government as well. My responsibilities expanded later to include 
assisting the 900+ managers and employees with human resource and 
personnel matters like employee training and development, counseling 
and guidance, and disciplinary actions.
    I transferred to the Operations side of the Casino to work for the 
Director of Casino Operations on management and personnel issues, 
budgeting, regulatory and operational compliance. Eventually I became 
the Executive Director of Strategic Planning where I worked for the 
Chief Operations Officer and was delegated to work with various 
department directors on overall regulatory and operational compliance, 
budgeting, and current and new facility improvement planning.
    In 2002, I transferred to the Tribal Government to work in the 
office of Governmental Affairs where I acted as an intergovernmental 
liaison, ensuring that the positions of the Tribe regarding local, 
state and federal policy reached the appropriate legislative and 
regulatory officials and bodies. I advanced to Senior Legislative 
Policy Analyst where I was responsible for the Governmental Affairs 
department personnel, budget and practices. As part of my work in this 
department, I headed the tribe's initiative to rewrite our gaming 
ordinance. In this capacity, I directed policy as the legal staff 
rewrote the tribe's gaming ordinance line by line. This effort included 
working with our gaming operators and regulators as well as using the 
NIGC's ordinance checklist to ensure that we produced a comprehensive 
ordinance that protected and safeguarded the operation thoroughly and 
complied with all applicable requirements.
    I also represented my tribe in a 28 tribe compact amendment 
negotiation with the State of Washington. I worked with my council to 
develop policy direction and asserted those positions in the 
negotiation. I also directed legal staff to ensure that the final 
compact language represented the tribe's interest. Part of this 
negotiation included writing Class III internal control standards in 
collaboration with State and tribal regulators, testing labs, 
manufacturers, other small and large tribal operators and their 
attorneys. This was no small task. It took 2 years from start to 
finish: from the first tribal discussion among all Washington tribes to 
final Interior approval.
    Another aspect of my work on behalf of Tulalip was serving on the 
various regional and national tribal organizations. I served on board 
of the Washington Indian Gaming Association, was the Northwest delegate 
to the National Indian Gaming Association and served as the Chair of 
the Gaming Subcommittee for the Affiliated Tribes of Northwest Indians. 
These experiences with various organizations allowed me to establish 
working relationships with tribes across the country, helping me to 
understand the larger impact of policies upon tribes outside my own. 
But more importantly, serving on these organizations furthered my 
experience in working with tribes with varying and often differing 
cultures, traditions, priorities, and positions. It helped to bolster 
my skills in consensus building and bridging differences.
    My experience working in one of the three largest tribal gaming 
operations in the Northwest, as well as for a tribal government, has 
afforded me the opportunity to learn where and how policy intersects 
with real-time practice. The work I did for my tribe required me to 
become knowledgeable of the application of the full range of Federal, 
State, and tribal laws and regulations that apply to Indian gaming and 
Indian tribes in general. Further, as a result of my experience working 
with large stakeholder groups, I have developed skills at working 
collaboratively to find the best solution even where there are 
competing interests.
    In addition to having worked since 1995 as a professional at 
various levels of Indian gaming operations, working at the intersection 
of the regulatory world, as I have just described, I would tell you 
that there is no better preparation for a grueling position in which an 
individual is caught between competing interests than standing before 
of the Tulalip council. I have on occasion been required to justify my 
opinions before the Council with careful reasons and strong arguments. 
The Tulalip council can be a tough audience, but they have and continue 
to praise me for walking in both worlds, for which I am grateful.
    Walking in both worlds is a phrase that is used in Indian country 
to refer to the ability to work not only in the tribal context but to 
function as well in the broader, non-Indian world. I think this phrase 
could also be used in a different way that is relevant to the position 
for which I am nominated, to describe an ability to cross the divide 
between gaming operations and broader policy. I think that this ability 
has served me well. Most recently I have served as an advisor to the 
Assistant Secretary for Indian Affairs at the Department of the 
Interior. If confirmed, I will bring all these experiences and skills 
to the position of Chairman.
    Working at my tribe's gaming facility and also for my tribal 
government and at the Department of the Interior has reinforced my 
commitment to safeguarding Indian gaming. Tribes as primary regulators 
are doing a good job and if confirmed, I look forward to working with 
them. And while I have a history and background in working with tribes 
and I bring with me my tribe's tradition of collaboration first, let me 
be clear: I commit to upholding the statutory authority and 
responsibilities of this position to oversee the regulation of Indian 
Gaming and where appropriate, to take enforcement action. If confirmed, 
I will work to ensure that Tribes achieve and maintain compliance with 
all applicable statutes and regulations under the NIGC's authority. 
Indian gaming has provided a much-needed economic boost whether in the 
form of revenue for services to communities or jobs; it has made a 
difference. And that is why thorough and consistent regulation at all 
levels of this industry is so vitally important. If confirmed, I commit 
to you, Mr. Chairman and Members of the Committee, I will work to make 
that happen.
    It is truly an honor and privilege to be considered for this 
position. Thank you, Mr. Chairman, for the opportunity to testify 
before you today. I will be happy to respond to your questions.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    The Chairman. Ms. Stevens, thank you for your testimony. As 
I indicated at the outset, I intend to support your nomination. 
I think the President has chosen wisely and I would expect and 
hope that your nomination will be able to clear this Committee 
and the Senate very soon.
    We have operated without a Chairman at the NIGC for some 
while. That doesn't make much sense to me. We need strong 
leadership and someone in that position.
    Let me say to you, there are a number of controversial 
issues. Although we on this Committee have not held hearings on 
them recently, because we have focused especially on getting 
the Indian Health Care Improvement Act done, we have focused 
especially on the issue of tribal law enforcement bill, we are 
working on a number of those things. Doesn't mean the other 
things are not an issue and that we will not turn to them. I 
believe we must at some point.
    When the Indian Gaming Regulatory Act was enacted in 1988, 
Indian gaming was $200 million a year. Two hundred million 
dollars a year. Now it is $27 billion annually, and 80 percent 
of the revenue is generated through Class III gaming, that is, 
what people traditionally refer to as Las Vegas style gaming.
    In 2006, as you recall, the Federal Courts in the Colorado 
River Indian Tribes case held that the Commission does not have 
the authority to issue minimum internal control standards for 
Class III gaming. I know that former Chairman Hogen felt very 
strongly, we held hearings, I have previously supported efforts 
to give the Commission that authority. We have not yet done 
that.
    But tell me your assessment of that case and what you 
believe should be the response, if any, by Congress to the 
Colorado River case?
    Ms. Stevens. Thank you, Chairman Dorgan, for your question.
    First of all, I want to thank you for paying so much 
attention to issues like health care and law enforcement. Those 
are incredibly important issues in Indian Country. I do 
understand that the Colorado River Indian Tribe decision is 
very important. And it has raised a lot of concerns about Class 
III regulatory authority of the NIGC.
    What I would first say is that it is important to 
distinguish between tribes and States that have really good, as 
you mentioned earlier, Class III regulatory oversight in their 
compacts. I come from a State, Washington, that has an 
extremely well-established, long-standing Class III framework 
for regulatory oversight that is shared between the tribes and 
the State.
    However, I do understand that there are tribal-State 
compacts that don't have as robust a system as we do. I think 
that it is something to be concerned about. We want to make 
sure that this particular industry, as you mentioned, that has 
been so helpful to Indian Country, is protected at all levels.
    In the face of the Colorado River Indian Tribe decision, I 
think what has been happening with the NIGC is that they have 
been reaching out to the tribes and the States in those areas. 
If I am confirmed, I would continue to do that. In the absence 
of legislation, I think that is what the NIGC has to do.
    I am a believer in working together, as I mentioned in my 
opening statement. There are ways to work at all three levels 
and coordinate and collaborate so that we can protect this 
industry and maintain its integrity.
    The Chairman. Ms. Stevens, what is your notion, if you have 
one, of off-reservation gaming? There is a lot of discussion 
about that. I have fairly strong views about off-reservation 
gaming. Every Indian tribe that is not near a population center 
would very much like to buy some land, take it into trust and 
put a casino or some sort of gaming facility near a major 
population center. It is called off-reservation gaming.
    There have been guidances by the Interior Department, 
talking about a commutable distance test and some historical 
relationship to the land that is sought and so on. Tell me your 
impression about off-reservation gaming.
    Ms. Stevens. Thank you, Senator Dorgan, for that question.
    It is a contentious issue. Off-reservation gaming, as is my 
understanding, has occurred in very few numbers, historically, 
over the past 21 plus years. However, I do realize it is a 
contentious issue.
    I would say that the authorities for land into trust and 
off-reservation parcels are under the purview of the Secretary 
of Interior. And NIGC's authority is very limited if it exists 
at all in this area. However, I do realize that it is a 
contentious issue and there is a lot of discussion and has been 
a lot of discussion about it to date.
    The Chairman. And there will be more, I am sure. I expect 
that you will be involved in that in some peripheral way.
    So, someone might say, number one, you are not old, number 
two, you don't have 35 years of experience, 40 years of 
experience, number three, you are not a lawyer, number four, 
you used to work in the Indian gaming industry. So those four 
things, they would say, that is probably not the strongest 
candidate. Give me your response to that.
    Ms. Stevens. Thank you, Senator Dorgan. I am actually older 
than I look.
    [Laughter.]
    The Chairman. By the way, I don't necessarily think it is 
an asset to be old.
    [Laughter.]
    The Chairman. I think bringing new blood and reasonably 
young, interesting people with new ideas into these agencies is 
an asset. But I am just saying that some people will look at 
you and say, you are not a lawyer, you don't have 40 years' 
experience and background and so how can you do this job.
    Ms. Stevens. Who are you and how did you get in here?
    The Chairman. Right.
    Ms. Stevens. What I would say, and for the reasons that you 
actually illuminated, I do come from Indian Country and I do 
come from an operational standpoint. I have practical 
experience where I can stand at the intersection of where 
policy has to be implemented, policies and regulations have to 
be implemented on the ground, from a practical standpoint. I 
know what it is like to receive regulations and comply.
    I also know what it is like to be a part of that process 
when regulations and policies are being made. I think that is a 
unique perspective that I can bring to this.
    And in terms of being an attorney, what I would say in 
looking back, I can understand in the beginning with IGRA first 
establishing the Commission, historically the chairmen have all 
been attorneys. And that was necessary as they were building 
the framework and the foundation for the Commission and as the 
industry was maturing.
    But 21 plus years later, it is a mature industry, as you 
demonstrated with the numbers of revenue that is coming in from 
Indian gaming. Tribes have become experts in operations. They 
have become experts in regulation, as the primary regulators on 
a day to day basis. Consequently, the Commission has become 
mature and has adapted and has really become a robust 
Commission. And what is in need today, I see that we have two 
new commissioners, this is an entirely new Commission right 
now.
    What this position needs is leadership. The Commission does 
have legal experts that do provide analysis and advice to the 
Commission and to the Chair. But I think what needs to happen 
here is leadership. And leadership is about managing people, 
managing strategic direction and building relationships. I can 
do all of those things. I come from the areas where that 
happens.
    The Chairman. Before I call on Senator Cantwell and Senator 
Franken, let me just mention to you that whether it is an oil 
spill in the Gulf of Mexico that is devastating, or a near-
collapse or collapse of the biggest investment banks in the 
Country, the need for effective, tough, no-nonsense regulation 
in a range of areas is critical. It is also critical in Indian 
gaming. Because this $27 billion industry is very important to 
Indian tribes.
    But you and I know what will happen if, because there is 
any lax oversight or regulatory response, if we have some areas 
in Indian gaming that blow up because there wasn't effective 
State regulatory authority and because the Commission didn't 
have the reach on Class III and so on, it is going to tarnish 
and hurt the entire industry. That is why it is so important 
for us to have effective regulatory authority and for the NIGC 
to work the way it is intended and expected to work.
    Having said that, I am supportive of your nomination. I 
want you to get through the Senate as quickly as we can, get 
you in that office. And I want you to do a good job, and I am 
sure you will.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for reminding me that you have been to the Tulalip Reservation, 
or pretty close thereby. So you know the proximity to Seattle, 
and yet the economic development that has occurred in that 
region.
    Ms. Stevens, I wanted to ask you about, obviously the 
National Indian Gaming Commission's most recent compliance 
report that indicated confidence that gaming tribes regulated 
by NIGC are maintaining a strong record of compliance. But the 
report also indicates that some tribes are failing to meet the 
regulatory deadlines. Are you willing to use enforcement 
authorities you have at your disposal in order to ensure the 
tribes remain, stay on top of this process?
    Ms. Stevens. Thank you, Senator Cantwell, for your 
question. As I said in my statement, I have made it clear that 
I will take enforcement action where appropriate and if 
necessary. As you know, my tribe is a very collaborative tribe 
and we have a background of collaboration. I hope that we can 
work through technical assistance and try to preempt and 
prevent some of these late audits, some of these findings that 
came out in that report. But, in the face of a willfully non-
compliant tribe, I have no problem taking enforcement actions, 
if confirmed.
    Senator Cantwell. Thank you. How do you plan to provide 
leadership? You mentioned the issue of collaboration. 
Obviously, with the departure of Ms. Coleman, it will leave the 
Commission without a top lawyer and one of your key staff 
people. I know you said you did lots of hiring at the Tulalip, 
hundreds of people. How do you plan on filling key positions in 
the agency there to make sure that we are fully staffed?
    Ms. Stevens. Thank you, Senator Cantwell. If confirmed, we 
know that Ms. Coleman is retiring. So we will have this 
position to fill. But it has been an acting position for some 
time now. And I would commit to this Committee that the NIGC 
would hire a permanent, full-time general counsel who has the 
knowledge, skills and experience necessary to fulfill their 
duties as the attorney for the Commission. I think there are 
plenty of qualified folks out there that can fill that job.
    There are other key positions, too, there. As I said, and 
Chairman Cladoosby said it, too, I have a lot of experience, as 
you noted, in hiring folks and recruiting. This is a new era, 
this is a great time to bring in new blood. It is a good time 
to bring in out of the box thinkers and problem solvers. As 
Chairman Dorgan said, folks basically who roll up their 
sleeves. I think, if confirmed, we can find those folks.
    But also surrounding that, I think the key to good 
management is surrounding yourself with good, qualified people 
that have the same team objective that you do. So I am 
confident that we could find a permanent general counsel and 
key staff.
    Senator Cantwell. You spent the last year working with 
Assistant Secretary Echo Hawk's office. So I am sure you have 
become not only familiar with the experience you have had in 
the Northwest, but many tribal operations across the Country. 
And so that will be helpful to you. You have two new 
commissioners who have been appointed, Steffani Cochran from 
New Mexico and Daniel Little from Massachusetts.
    So you have a pretty new team. How do you plan to reach out 
on those issues of compliance and reaching out to Indian 
Country, so as you say, you have more cooperation in advance, 
so that you don't have to use the enforcement mechanisms?
    Ms. Stevens. Thank you, Senator. Actually, I know the two 
new commissioners, and if confirmed, I am looking forward to 
working with them. I think they bring a lot to the table. It is 
not a dictatorship. To some extent there are powers and 
authorities that are only with the Chairman. But if confirmed, 
I look forward to working with the new commissioners to really 
just brainstorm on how we can tackle some of these issues, like 
the report, or issues about Class III regulatory authority, 
technical assistance, so that we can preempt some of this.
    Steffani and Dan are well-experienced individuals, whose 
hearts are in the right place for Indian Country. I would 
commit to you and to this Committee, if I am confirmed, that it 
would be a very collaborative approach among the commissioners 
and working with tribes to see where we can fill gaps that will 
ensure the integrity of the operations and protect Indian 
gaming.
    Senator Cantwell. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman.
    Ms. Stevens, we met yesterday in my office. I was very 
impressed. I don't have a lot of questions.
    One thing we talked about is I have 11 tribes in my State. 
All of them have gaming in varying degrees. We have major 
casinos like in many States where they are close to population 
centers, the Shakopee, Mille Lacs, Prairie Island. And then the 
other tribes are farther away from population centers and have 
smaller operations and less lucrative operations and tend to be 
poorer for it.
    These are all sovereign entities. So I know there is 
nothing that can be done on a basis other than voluntarily 
asking these tribes. But do you have any thoughts about sort of 
the distribution of these revenues, where some tribes are 
located very close to a metropolitan center and they may be a 
small tribe? So per member of a tribe they are doing very well, 
whereas other tribes in the same State really are having 
tremendous difficulties?
    Ms. Stevens. Thank you, Senator. I do recognize, and I 
recall talking to you about this yesterday, there are really 
circumstances, due to just the demographics of where a tribe is 
located, and oftentimes that is not in a very populated area, 
that change the outcome of whether they have a casino or not. 
You mentioned to me that you have a tribe in your area that is 
very generous, Shakopees, in sharing their revenue. And as you 
stated, the NIGC has limited any authority on how tribes can 
distribute their revenues.
    However, I also come from a State where we built a 
mechanism into our compacting system where the tribes, and I 
was talking to Senator Tester about this yesterday, that the 
way that we share in the state of Washington, we look at 
examples, like with Minnesota Shakopee, where tribes that are 
not in a demographically favorable area lease machines to the 
ones that are, like with my tribe. And that is one way for 
tribes to gain from gaming revenue and not have to struggle to 
have an operation that demographically would not be successful.
    But I certainly recognizes that there is a divide between 
tribes that have very successful gaming operations and those 
that don't. Certainly I personally encourage tribes to work 
with other tribes to see how they might be able to assist 
others.
    Senator Franken. Just as part of the culture. Now, Senator 
Cantwell was talking about some of the tribes who run casinos 
being slow to respond to you. In talking to some of the 
Minnesota tribes, one thing I have heard about the NIGC is that 
it is very slow, the process, decisions. And this makes it 
challenging for the tribes to make time-sensitive business 
decisions. If confirmed, will you expedite response time at 
NIGC?
    Ms. Stevens. Senator, thank you for your question. Yes, I 
would look into what are the practices. I think as a manager, 
when you first come in, you take a look around and you see what 
everybody's doing. And you look at the objectives and see if 
they are matching up. And really, I am not a bureaucrat. I am 
new to the area. So I
    Senator Franken. Shame on you.
    [Laughter.]
    Ms. Stevens. But I have very little patience, as people who 
have worked with me know. But I certainly will be fair and firm 
with the staff, but I really agree that processes should be 
expedited. But we certainly don't want to compromise the 
integrity of the regulatory oversight. But I would commit to 
you that I would look into that and see what we can do about 
expediting some of the decisions that come out of NIGC.
    Senator Franken. Thank you.
    And because my time is running out, just very quickly, you 
are also, if you are not a bureaucrat, you are also not a 
lawyer, working in a largely lawyer-driven area. Maybe I am 
biased, I happen to think that might be a strength. I am on the 
Judiciary Committee, I am not a lawyer.
    Can you speak to how your background as someone who really 
operated a casino speaks to your ability to regulate casinos 
and working in the gaming industry?
    Ms. Stevens. Thank you, Senator.
    It is helpful to have a legal background. I don't think 
that it is necessary, and I would agree with you. I am inclined 
to make a joke to say that I am smart enough, people like me.
    Senator Franken. I don't get it.
    [Laughter.]
    Ms. Stevens. But all joking aside, I come from a background 
where, like I said, it is like building a house. It is one 
thing to make the plans and write them up, it is another thing 
of the builder to build it. It is another thing for the guy 
that has to permit to permit it, and it is usually someone who 
has some sort of legal background, engineering background. Then 
someone has to live in it.
    I have a very practical sort of experience, I live in the 
operations. I know what it is like to have regulations and 
policies handed down to me and to implement them. I have that 
perspective, to say, that won't work, we have to find another 
way to do this. And that is what I guess I would say to you in 
regard to that. While I am not an attorney, I would rely on the 
advice and analysis of the permanent general counsel that I 
would, if confirmed, would seek and hire.
    But I am confident I can do the job. It is more about 
leadership at this point in time than it is about being an 
attorney. I think that for the NIGC, it is a new day. It is 
time for some new leadership. I think I can provide that, if 
confirmed.
    Senator Franken. I think you can, too. Thank you, Ms. 
Stevens, and congratulations on your confirmation.
    Ms. Stevens.
    The Chairman. Senator Cantwell, did you have anything 
further?
    Senator Cantwell. No, thank you, Mr. Chairman.
    The Chairman. All right.
    Ms. Stevens, we will be sending you some additional 
questions. And then it will be my intent to, at the next 
business meeting, have your nomination on the calendar for the 
business meeting. We would hope to see you as Chairman of the 
National Indian Gaming Commission at some future hearing.
    We appreciate your being here today. We thank you for 
introducing your family to us. And we will, as I said, be 
sending additional questions and hope to move this nomination 
very quickly.
    Ms. Stevens. Thank you, sir.
    The Chairman. Thank you.
    This hearing is adjourned.
    [Whereupon, at 11:00 a.m., the Committee was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                           Tracie L. Stevens
    Question 1. Commission Regulations and Consultation. In recent 
years, the Committee has heard from Tribes that consultations with the 
National Indian Gaming Commission were not ``meaningful.'' In your 
view, what is ``meaningful'' consultation with tribal governments? If 
confirmed, how will you consult with tribes while still allowing the 
Commission to fulfill its regulatory obligations?
    Answer. I believe that the National Indian Gaming Commission should 
carry out its mission consistent with President Obama's commitment to 
Indian Country to reinvigorate the government-to-government 
relationship with tribes, which includes a commitment to meaningful 
tribal consultation under Executive Order 13175. Meaningful 
consultation is rooted in the United States trust responsibility to 
tribes and reflects the attitude that tribes, as sovereigns, have 
something valuable to contribute and requires good faith on the part of 
the Commission. Because the Commission also has a role to play in 
fulfilling this trust responsibility, the Commission must seriously 
consider and address input or concerns when making decisions that 
affect tribes and tribal gaming. Tribal feedback can provide valuable 
insights regarding how a proposed regulation or policy might function 
on the ground.
    Meaningful consultation does not mean that the government should 
ever abandon or compromise its important missions or that tribes are 
given a de facto veto over proposed new policies. Instead, through 
meaningful government-to-government consultation the NIGC will be able 
to make well-informed, fully considered decisions.

    Question 2. Class II Gaming (Bingo, and games similar to bingo). In 
recent years, the Commission has sought to establish a ``bright line'' 
between class II electronic bingo games and class III slot machines. 
The proposed regulations were controversial with mixed reviews from 
both tribes and states. In 2006, you testified before the National 
Indian Gaming Commission against these regulations. Can you explain 
your testimony in 2006, and discuss whether your position will change 
if you are confirmed as Chairman of the Commission? Do you believe that 
the NIGC has the legal authority to issue regulations that redefine 
Class II and Class III games?
    Answer. At that NIGC hearing in 2006 I represented my Tribe's 
position--and not my personal position--by delivering my Chairman's 
testimony in his absence. Tulalip was opposed to that particular draft 
of Classification standards due to the effects of reclassifying 
machines in use at that time. The Commission eventually withdrew the 
proposed regulation, in the face of widespread tribal opposition, and 
in favor of Technical Standards.
    The Commission has the authority to regulate Class II gaming, 
including adopting regulations to clearly define Class II gaming. I 
know that several federal courts have interpreted the statutory 
definition of Class II games under the Indian Gaming Regulatory Act, 
thus it is important that any regulatory definitions be consistent with 
established judicial interpretations of the authority that Congress has 
provided.

    Question 3. Surplus Budget. We understand that the Commission has 
run a $10 million to $12 million surplus in recent years. As you know, 
the Commission's budget is funded entirely from fees collected from 
tribal governments. A number of tribes believed that this amount was 
excessive, and that it should be returned. Do you believe the 
Commission needs a surplus, and if so, what amount do you think is 
reasonable?
    Answer. While I am aware that the NIGC's budget is funded through 
fees collected from tribal gaming enterprises, I am not sufficiently 
familiar with the NIGC's budgeting practices or process to assess 
whether a budget surplus is needed. If confirmed, I would examine this 
process, and consult with the tribes that pay these fees, to assess 
what actions, if any, might need to be taken.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                           Tracie L. Stevens
    Question 1. Role of Law Enforcement in Indian Gaming. In 2007, the 
Department of Justice charged 19 defendants related to an alleged 
racketeering enterprise and a scheme to cheat Indian casinos across the 
country out of millions of dollars.
    I noticed that you did not include law enforcement as a stakeholder 
in the work of the NIGC. What is your position on law enforcement as it 
pertains to Indian gaming?
    Answer. Law enforcement is an essential part of fulfilling 
Congress' goal of protecting Indian gaming. The role of the NIGC is to 
ensure that Indian gaming takes place in accordance with applicable 
civil laws and regulations. IGRA also reconfirms the role of the 
Department of Justice in enforcing criminal laws. Criminal law 
enforcement ranges from prosecuting individuals who are committing 
federal crimes against a tribal gaming enterprise to bringing action 
against the tribes for violations of federal criminal laws. If the NIGC 
finds information indicating a violation of federal, state, or tribal 
law, it provides what it has found to the appropriate law enforcement 
agencies.

    Question 2. Will you work closely with the Department of Justice to 
ensure that the regulations adopted by the Commission will be enforced? 
If so, please explain how you intend to do that. What will you do to 
emphasize coordinated efforts between tribal, State, and federal 
investigators to identify and prosecute violations of federal law 
relating to Indian gaming?
    Answer. I understand the importance of ensuring that tribal gaming 
remains free of criminal activity. Therefore, if confirmed, I will work 
with the Department of Justice and with other appropriate federal 
agencies with law enforcement jurisdiction in Indian Country, including 
the Internal Revenue Service; the Federal Bureau of Investigation; and 
the Department of the Treasury. In addition, and as particular matters 
may require, if confirmed, I will ensure that the NIGC is also working 
with the appropriate state and tribal law enforcement agencies. I am 
aware that NIGC maintains close relationships with these agencies 
through the Indian Gaming Working Group, an inter-agency entity 
consisting of federal agencies that work in Indian country and tribal 
law enforcement agencies. If confirmed, I will become more familiar 
with this process to determine if any additional coordination is 
needed.

    Question 3. Tribal Consultation. In the biographical information 
submitted to the Committee, you mention that tribal consultation is 
very important and that the previous Commission did not engage in 
meaningful consultation with tribes while promulgating proposed 
regulations.
    Explain what steps or processes you intend to use to engage in 
tribal consultation. Please be specific.
    Answer. I believe that the National Indian Gaming Commission should 
carry out its mission consistent with President Obama's commitment to 
Indian Country to reinvigorate the government-to-government 
relationship with tribes, which includes a commitment to meaningful 
tribal consultation under Executive Order 13175. Meaningful 
consultation reflects an attitude that tribes, as sovereigns, have 
something valuable to contribute and requires good faith on the part of 
the NIGC. The Commission must seriously consider and address input or 
concerns when making decisions that affect tribes and tribal gaming. 
Tribal feedback can provide valuable insights regarding how a proposed 
regulation or policy might function on the ground.
    Meaningful consultation does not mean that the government should 
ever abandon or compromise its important missions or that tribes are 
given a de facto veto over proposed new policies. Instead, through 
meaningful government-to-government consultation the NIGC will be able 
to make well-informed, fully considered decisions. If confirmed, I will 
examine the existing consultation process at the NIGC and ensure that 
it is aligned with E.O. 13175

    Question 4. What is your view on the relationship between the NIGC 
and the Department of Justice regarding consultation?
    Answer. I am aware that there have been instances in the past when 
the NIGC and the Department of Justice have coordinated their 
consultation efforts. Maintaining the integrity of Indian gaming 
requires close coordination with the Department of Justice. If 
confirmed, I will explore opportunities to collaborate with the 
Department of Justice.

    Question 5. NIGC Review of Management Contracts. As you know, the 
NIGC has oversight and authority to approve or disapprove tribal 
management contracts at tribal gaming facilities. What is your opinion 
on the effectiveness of the management contract review process at the 
NIGC? What if anything, would you do to change it? Is legislation 
needed?
    Answer. IGRA gives the Chairman the authority to review and approve 
management contracts for tribal gaming operations. Approval of 
management contracts is one area where the Chairman and the Commission 
exercise its trust responsibility to tribes to ensure the contracts are 
in the best interest of tribes and consistent with IGRA. While this 
process is controlled by regulations, I am not familiar with the 
specifics of the review process. If confirmed, I look forward to 
understanding the management contracts review process in more detail 
and will enter into consultation with tribes to determine what, if any, 
changes, including legislative changes, may be necessary to make the 
program more effective.

    Question 6. On December 21, 2009, the Federal District Court for 
the Western District of Wisconsin, in the case of Wells Fargo Bank, 
N.A., v. Lake of the Torches Economic Development Corporation, held 
that the Trust Indenture agreement, which binds the Tribe to pay 
interest and principal on $46,615,000, is a management contract that 
was executed without prior approval from the National Indian Gaming 
Commission and that the agreement is void.
    In light of this case, what are your plans for the NIGC to prepare 
to comply with this ruling? Will the NIGC implement a policy to review 
all financial agreements with tribes? If not all agreements, what kinds 
of agreements do you believe should be reviewed?
    Answer. While the NIGC has no affirmative authority to review 
financial agreements under IGRA, given its role in approving management 
contracts, the Office of General Counsel will, upon request, review 
financial agreements for tribes and lenders or investors and provide a 
non-binding opinion on whether certain terms or conditions in the 
agreement might mean it meets the criteria of a management contract. If 
a financing agreement is considered a management contract, the Chairman 
will have to approve the agreement for it to be valid.

    Question 7. Do you think the NIGC should have a role in ensuring 
that tribes are required to repay debt before paying its per capita 
payments? If so, what should that role be?
    Answer. The NIGC has a statutory obligation to ensure that gaming 
revenues are used for their permissible purposes. Revenue allocation 
plans which allow for per capita payments are approved by the Assistant 
Secretary for Indian Affairs, but compliance under IGRA is also the 
responsibility of the Commission. If a tribe is not in compliance with 
these provisions in IGRA, then the NIGC may bring an enforcement action 
against the tribe. Whether or not a particular tribe is in violation of 
its revenue allocation plan, when it does not repay its debt before 
issuing per capita payments, has to be evaluated on a case by case 
basis, as each tribe's plan is different.

    Question 8. NIGC Review of Existing Regulations. In the 
biographical information that you have submitted to the Committee, you 
mention that if confirmed, you will conduct a review of NIGC 
regulations to determine whether they are appropriate and consistent 
with statutory requirements.
    What process or procedure will you use to undertake this review?
    Answer. Due to the scope of such a review, it is my intention that, 
if confirmed, I would confer with the other commissioners and NIGC 
staff to determine how best to move forward with a comprehensive review 
of the regulations. I expect that this review will include consultation 
with the tribal nations and their gaming commissions to determine the 
best approach. If confirmed, this would be one of my first objectives.

    Question 9. Based on your knowledge of current regulations, do you 
think any should be reworked or amended? If so, which regulations 
should be reworked or amended and why?
    Answer. Rather than speculate at this time, this question is better 
answered in the context of a comprehensive review. If confirmed, such a 
review will be one of my first objectives.

    Question 10. Do you consider tribal compliance with IGRA and IGRA 
regulations to be a top priority facing the NIGC?
    Answer. I do believe that this is a top priority. Two purposes of 
the IGRA are; to ensure that an Indian tribe with gaming operations is 
the primary beneficiary of those operations and to make certain that 
gaming is conducted fairly and honestly by both operators and players. 
Compliance with the Act and the regulations is necessary to ensure the 
continued integrity of gaming.

    Question 11. Loan from Tulalip Tribes. The biographical and 
financial information that you submitted to the Committee notes a 
$1,000 loan made to you by the Tulalip Tribes. Although you have 
indicated that you will recuse yourself from any matters pertaining to 
the Tulalip Tribes, the NIGC continues to regulate the Tribe, which is 
the lender of the $1,000 loan you have agreed to repay.
    Do you plan to pay off that loan prior to assuming your position as 
Chairman of the NIGC?
    Answer. Yes, I do plan to pay off the loan prior to assuming the 
position as Chairman, if confirmed.

    Question 12. Revenue Allocation Plans. The Indian Gaming Regulatory 
Act authorizes the Secretary of the Interior to approve an Indian 
tribe's Revenue Allocation Plan to ensure that net gaming revenues are 
not to be used for purposes other than to fund tribal government 
programs, provide for the general welfare of the tribe, promote tribal 
economic development, donate to charitable organizations, or help fund 
operations of local government agencies.
    What efforts will you make to ensure tribal compliance with IGRA 
regarding Revenue Allocation Plans?
    Answer. Use of net gaming revenues by tribes is an extremely 
important issue. The use of revenues for the purposes delineated in 
IGRA ensures that the goals of the Act are met-to ensure that tribes, 
as a whole, are the primary beneficiaries of their gaming operations; 
to encourage tribal self-sufficiency; to promote tribal economic 
development; and to create strong tribal governments.
    If tribes wish to provide per capita payments to their members, 
they must have a revenue allocation plan approved by the Secretary of 
the Interior. As a supporter of tribal sovereignty and strong tribal 
governments, if confirmed, I will ensure close coordination with the 
Department of the Interior's Office of Indian Gaming for prompt receipt 
of approved revenue allocation plans; training and technical assistance 
to tribes regarding IGRA's requirements for the use of revenues; and, 
if necessary, enforcement actions to ensure compliance with federal and 
tribal gaming ordinances.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           Tracie L. Stevens
    Question 1. For the record, do you support or oppose amending IGRA 
to expressly provide the NIGC with oversight authority in Class III 
minimum internal control standards (MICS)?
    Answer. I come from a state with a very strong Class III regulatory 
program and so I have seen firsthand how it can work. However, I 
recognize that some states need help and, if confirmed, the NIGC under 
my leadership will look at this problem and identifying steps that can 
be taken to ensure that there are no regulatory weak links. If 
confirmed, I would welcome the opportunity to work with the Congress 
and Committee to find ways to best balance the role of tribes as the 
primary regulators of their gaming operations and existing Class III 
state compacts with current federal law governing implementation, 
enforcement, and oversight.

    Question 2. Some say that a ``CRIT fix'' isn't necessary because 
many tribes have voluntarily adopted NIGC's Class III regulations as 
guidance. Do you believe existing Class III MICS (although 
unenforceable) should be relaxed?
    Answer. In order to provide a considered answer to this question I 
would need more information, such as whether voluntary adoption of the 
regulations as guidance has generally worked, or not. I am told, 
however, that more than a dozen tribes in California have adopted the 
NIGC's MICS in their gaming ordinances, thus making them binding and 
enforceable by the NIGC, and that the MICS are incorporated into a 
number of tribal-state compacts, including those in Oklahoma, Arizona, 
and North Dakota, and in the Northern Arapaho Tribe's secretarial 
procedures. If confirmed as NIGC Chairman, I will assess this issue in 
more detail.

    Question 3. IGRA prohibits Tribes from using gaming revenues for 
anything other than the following: to fund tribal government agencies; 
to promote the general welfare of its members; to promote tribal 
economic development; to help fund operations of local governments; and 
to donate to charitable organizations. Would you support amending IGRA 
to prohibit gaming revenues from being used to hire federal lobbyists, 
particularly those contracted to influence Indian gaming regulation?
    Answer. The IGRA, at present, allows gaming revenue to be used for 
tribal governmental operations and those operations may include 
governmental affairs agencies that interact with other sovereigns, 
including states, other tribes, and the federal government If 
confirmed, I will review proposed legislation regarding the usage of 
gaming revenues by tribes, keeping in mind that tribes, like states, 
are sovereign entities.

    Question 4. As a current Interior Department policy advisor, what 
level of say do you think local communities should have in the siting 
of casinos in their community? Do you support making the process of 
casino approval more transparent than it is today?
    Answer. While the NIGC has no real role in the siting process, I am 
aware that under the Department of the Interior's trust acquisition 
regulations the public and local communities are notified of such 
acquisitions and are given an opportunity to express their views. In 
addition, the Department must comply with other federal laws, such as 
the National Environmental Policy Act, which may provide additional 
opportunities for the public and state and local communities to provide 
input into the process.

    Question 5. ``CRIT fix'' opponents have argued that a Class III 
MICS aren't necessary because the Commission still has the authority to 
approve/disapprove Class III management contracts. Unfortunately, IGRA 
doesn't clearly define ``management contracts.'' This leaves contracts 
with ``vendors'' or so-called ``gaming consultants'' without sufficient 
federal oversight. Take for example a 2007 case involving Mr. Ivy Ong, 
a man with a prior criminal record who was contracted by the Seminole 
Nation as a gaming consultant and later convicted of bribing tribal 
gaming officials to increase his cut of gaming revenues. Because Mr. 
Ong negotiated with the tribe as machine vendor, rather than a gaming 
manager, his contract was not reviewed by the NIGC, and Ong did not 
undergo a background check. The NIGC ultimately fined the Nation $11 
million in penalties while Ong was only fined $5 million, making tribal 
members the losers here. Would you support amending IGRA to define term 
``management contract'' ? If not, how would you address this 
vulnerability and under what authority?
    Answer. As I mentioned at the hearing and in the information I 
submitted to the Committee, one of my first objectives, if confirmed, 
would be to carry out a comprehensive review of the NIGC's regulations. 
It is through this process that I would gain the information needed to 
determine what, if any, changes may be necessary to make the program 
more effective.

    Question 6. In your questionnaire, you support using technical 
assistance in lieu of a CRIT Fix to help tribes implement minimum 
internal control standards (MICS). How would you justify spending 
taxpayer dollars for technical assistance in an area that the CRIT 
decision says NIGC has no business regulating?
    Answer. While the CRIT decision held the NIGC does not have the 
authority to enforce Class III MICS and thus may not use funds to do 
so; technical assistance is a different matter. NIGC has an obligation 
to ensure Indian gaming is being conducted fairly and training and 
technical assistance are necessary tools used by the Commission. The 
NIGC is required by statute to provide technical assistance to tribal 
gaming operations. I believe technical assistance is an appropriate and 
well spent use of NIGC funding, which is derived from fees collected 
from Indian gaming operations, so long as tribes seek technical 
assistance in implementing internal controls in their gaming operations 
to protect their revenue.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Coburn to 
                           Tracie L. Stevens
    Question 1. Do you believe that accountability within Indian gaming 
begins with an informed tribal citizenry? If so, do you believe that 
tribal citizens should be given access to some or all data reported to 
the National Indian Gaming Commission from tribal gaming?
    Answer. I strongly believe that transparency is desirable for the 
operation of any public enterprise. Under the IGRA there is no 
provision requiring transparency by tribal members, and by law the NIGC 
must keep proprietary commercial or financial information confidential 
and may release such information only to appropriate law enforcement 
agencies. The question of how much information to make available to the 
public is a decision left to the individual tribes. Tribes, as 
sovereigns, have many ways in which they communicate information 
relating to governmental functions and accountability to their members.

    Question 2. Do you believe that the line between Class II and Class 
III gaming has been appropriately drawn?
    Answer. I believe it is very important that the regulatory 
environment for Indian gaming be as secure as possible. If confirmed, I 
will review this issue as part of our comprehensive review of the 
regulations.

    Question 3. President Obama promised to conduct ``an immediate and 
periodic public inventory of administrative offices and functions and 
require agency leaders to work together to root out redundancy.'' When 
do you plan to start this within the National Indian Gaming Commission, 
and when can we expect you to complete it?
    Answer. I am aware of the President's commitment to put our Nation 
on a sustainable fiscal path and if confirmed, I will continue to 
support this objective, keeping in mind that NIGC is self-financing due 
to fees paid by the gaming industry.

    Question 4. Which programs or initiatives within the National 
Indian Gaming Commission, if any, do you think can be eliminated 
because they are ineffective, duplicative, unnecessary or have outlived 
their purpose?
    Answer. I agree that ineffective, duplicative, or unnecessary 
programs should be eliminated. If confirmed, ensuring that the NIGC's 
efforts are focused where they are needed will be one my first efforts 
and this will be informed by the review of existing regulations that I 
will carry out, and will include tribal consultation.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                           Tracie L. Stevens
    Question 1. Internet Gaming. Internet gaming is getting a lot of 
attention lately. Where do you stand? Support it? If so, where should 
tax revenues go? Tribes? States? Federal Government?
    Answer. There are any number of reasons to support or to oppose 
Internet gaming, just as there are with any expansion of gaming. I am 
aware that several bills have been introduced that would legalize 
Internet gaming. If confirmed, I would work with the Office of General 
Counsel to analyze the legislation and determine how it would interact 
with all other applicable laws and how it could affect NIGC's 
authorities.

    Question 2. Class II Regulations. For the past few years, 
regulations on Class II gaming have been controversial. Some want to 
tighten them up. Others want to expand them. What are your thoughts?
    Answer. I believe it is very important that the regulatory 
environment for Indian gaming be as secure as possible. If confirmed, I 
will include the Class II regulations in our comprehensive review of 
the regulations.

    Question 3. Off-reservation gaming. Some oppose tribal governments 
purchasing land off-reservation, having DOI place it in trust, and then 
building a casino on it. When and where is it appropriate?
    Answer. The Department of the Interior's Section 151 regulations on 
trust status for off-reservation land are implemented by the Secretary 
of the Interior. If confirmed as Chairman of the NIGC, I would not be 
involved in determining when such acquisitions might be appropriate.

    Question 4. Indian hiring preference. To what extent has NIGC used 
an Indian preference policy in the past? Do you support? Will you 
expand its use?
    Answer. If confirmed, I intend to support this policy. I believe it 
is beneficial in fulfilling the purposes of the IGRA. I am aware that 
the NIGC is in the process of developing an Indian preference policy 
and, if confirmed, I look forward to being part of that process.

    Question 5. Consultation. Every issue between the government and 
Indian Country requires active communication. What are your plans for 
consultation and communication with tribal leaders as you make 
decisions at NIGC?
    Answer. I believe that the National Indian Gaming Commission should 
carry out its mission consistent with President Obama's commitment to 
Indian Country to reinvigorate the government-to-government 
relationship with tribes, which includes a commitment to meaningful 
tribal consultation under Executive Order 13175. Meaningful 
consultation reflects an attitude that tribes, as sovereigns, have 
something valuable to contribute and requires good faith on the part of 
the NIGC. The Commission must seriously consider and address input or 
concerns when making decisions that affect tribes and tribal gaming. 
Tribal feedback can provide valuable insights regarding how a proposed 
regulation or policy might function on the ground.
    Meaningful consultation does not mean that the government should 
ever abandon or compromise its important missions or that tribes are 
given a de facto veto over proposed new policies. Instead, through 
meaningful government-to-government consultation the NIGC will be able 
to make well-informed, fully considered decisions.

    Question 6. Economic Development. What role do you think Indian 
gaming should play in economic development? Particularly on isolated, 
rural reservations? Does it really help, or create more problems 
associated with addiction?
    Answer. One of the five specific purposes in the IGRA for which 
gaming revenue is to be used is to provide a statutory basis ``for the 
operation of gaming by Indian tribes as a means of promoting tribal 
economic development, self-sufficiency, and strong tribal 
governments.'' As I noted in my statement at my confirmation hearing, 
Indian gaming has provided a much-needed economic boost--in the form of 
revenue for community services and jobs--for many tribes. It has 
allowed some tribes to diversify economically into other industries and 
businesses. This source of employment is particularly important in 
isolated, rural reservations, and the revenue generated from Indian 
gaming operations is used to benefit tribal members through 
governmental programs that provide for the general welfare of Indian 
tribes and their members.

    Question 7. Tribal Revenue Sharing. In my office, we talked about 
machine allotment/rent. For example, each tribe is entitled to operate 
X machines. They can either put them in their casino or rent them to 
other tribes. It sets up the situation where rich, urban tribes pay 
poor, rural tribes to rent the machines they can't use. Please explain 
how NIGC could make such a program work nationwide.
    Answer. I understand that these types of agreements are possible 
only through the mechanism of tribal-state compacts. NIGC's ability to 
implement such a program nationwide is limited by IGRA's statutory 
regulatory structure, and would require the active participation and 
acceptance of each of the individual states where Class III slot 
machine gaming now occurs.

    Question 8. Role as Chairman. Some say this is one of the most 
thankless jobs in DC (and it certainly has stiff competition!). Why do 
you want it? How do you see your role in this job? Reigning in Indian 
gaming? Expanding it? What do you think the past Chairman did right? 
What did he do wrong? How/why will you do a better job?
    Answer. I see a unique opportunity to serve in this Administration 
working in collaboration with tribes and states to oversee and protect 
Indian gaming. I believe this must be a collective effort among these 
three regulatory groups. My background gives me a unique perspective, 
informed by an intersection between operations and policy. I have on-
the-ground experience inside an operation, so I know what it is like to 
implement regulations and policies. I also know the process in which 
policies and regulations are made. In addition, because I come from 
Indian Country and I have experience in a tribal gaming operation, I am 
committed to the regulation and oversight of Indian Gaming and will be 
a strong enforcer of the law. In the past, the NIGC's relations with 
tribes have become strained, which ultimately may have been at the cost 
of effective oversight and efficient regulation. If confirmed, I hope 
to rebuild these relationships in order to strengthen both the NIGC's, 
and the tribes', ability to protect these initiatives that have made a 
difference for so many Indian people and communities.

    Question 9. Experience. Some are concerned about your ``lack of 
experience'', because you are not a lawyer. Do you think they have good 
reason for that concern? What is your weak point? Strong point?
    Answer. As I stated at my confirmation hearing, the NIGC has a 
staff of legal experts, and I believe what is needed most is 
leadership-in managing people, in strategic direction, and in building 
relationships. I believe my background, which gives me a unique 
perspective informed by both operational and practical experience, has 
prepared me for this opportunity. If confirmed, I will appoint a 
knowledgeable and experienced individual to be the General Counsel and 
would consult with that individual to advise me and other members of 
the Commission on the NIGC's legal responsibilities and to ensure 
compliance with statutes, regulations, executive orders and court 
decisions.

                                  <all>

</pre></body></html>
